RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-1189
BP p.l.c., et al.,
Petitioners,
v.
Mayor and City Council of Baltimore,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Peter D. Keisler, certify that
the Brief for the Chamber of Commerce of the United States of America as Amicus
Curiae in Support of Petitioner in the foregoing case contains 3,912 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 30, 2020.
/s/ Peter D. Keisler
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

